Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


HAWAII DID NOT ADEQUATELY
MONITOR IMPLEMENTATION OF
SOME RISK-SHARING CONTRACT
 PROVISIONS FOR THE QUEST
    EXPANDED MEDICAID
  MANAGED CARE PROGRAM


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                        April 2013
                                                      A-09-11-02054
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Hawaii established risk-sharing mechanisms in its contracts with managed care
 organizations for QUEST Expanded Medicaid in accordance with Federal regulations.
 However, it did not adequately monitor implementation of some contract provisions.

WHY WE DID THIS REVIEW

Federal regulations allow a State Medicaid agency to enter into a comprehensive risk contract
with a managed care organization (MCO); the contract must specify any risk-sharing
mechanisms. These risk-sharing arrangements reduce MCOs’ financial risk by providing a
mechanism for States to share in MCOs’ losses but also allow States to share in MCOs’ gains.
Because the Federal and State Governments jointly fund the Medicaid program, the Federal
Government also shares in any losses or gains.

Hawaii is one of the States that uses risk sharing in its MCO contracts. The Hawaii Department
of Human Services (State agency) entered into comprehensive risk contracts with MCOs to
provide health services to beneficiaries under the age of 65 and without a disabling diagnosis
under QUEST Expanded Medicaid (QUEST), a Medicaid section 1115 demonstration project.

Our objectives were to determine whether the State agency established risk-sharing mechanisms
in its contracts with MCOs for QUEST in accordance with Federal regulations and adequately
monitored implementation of the contract provisions.

BACKGROUND

The State agency entered into comprehensive risk contracts with four MCOs in the fiscal year
(FY) ended June 30, 2009, and three MCOs in the FY ended June 30, 2010. According to the
contract with each MCO, the State agency shares in any significant difference between the total
monthly capitation payments to the MCO (capitated revenues) and the net health care expenses
of the MCO. The MCOs submit to the State agency annual financial reports within 45 days of
the State FY ended June 30. These reports include the Statement of Revenue and Expenses,
which shows capitated revenues and health care expenses.

According to each contract, the State agency will request that the MCO submit an updated
financial report for the FY ended June 30 to reflect any adjustments through December 31.
Upon receiving the MCOs’ reports, the State agency is required to develop an aggregate
profit-and-loss statement for the MCOs and to compute an aggregate net loss or gain percentage
for QUEST. If the net loss exceeds 5 percent or the net gain exceeds 3 percent (a range referred
to as the “risk corridor”), the risk-sharing provisions go into effect and the profit or loss, as
applicable, is shared between the State agency and the MCOs.

For the FYs ended June 30, 2009, and June 30, 2010, the State agency calculated that the MCOs’
aggregate net loss or gain percentage was within the risk corridor. Therefore, the risk-sharing
provisions of the contracts did not go into effect.



Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)                 i
WHAT WE FOUND

For the FYs ended June 30, 2009, and June 30, 2010, the State agency established risk-sharing
mechanisms in its comprehensive risk contracts with MCOs for QUEST in accordance with
Federal regulations. However, the State agency did not adequately monitor implementation of
some of the contract provisions. Specifically, the State agency did not (1) request updated
financial reports from the MCOs to calculate the aggregate net loss or gain percentage or
(2) verify the completeness and accuracy of the financial data submitted by the MCOs, including
verifying that capitated revenues and health care expenses were based on actual revenues and
expenses less any reimbursements.

After obtaining updated financial reports from the MCOs and using the MCOs’ actual revenues
and expenses for the FY ended June 30, 2010, we determined that the aggregate net loss or gain
percentage was within the risk corridor. Consequently, the risk-sharing provisions were not
applicable for the FY ended June 30, 2010. (We did not recalculate the aggregate net loss or
gain percentage for the FY ended June 30, 2009.) Although our analysis for 2010 determined
that the aggregate net loss or gain percentage was within the risk corridor and there was no
impact on the Federal Government share, the Federal Government’s share could be affected in
future years if the State agency does not adequately monitor implementation of the contract
provisions.

WHAT WE RECOMMEND

We recommend that, in the future, the State agency:

    •   obtain from the MCOs updated financial reports reflecting any adjustments through
        December 31 and use those reports to calculate the aggregate net loss or gain percentage
        and

    •   verify the completeness and accuracy of the financial data provided by MCOs in updated
        financial reports.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with our findings and
described actions that it had taken to address our recommendations. The State agency also
suggested that we revise the title of our report. After reviewing the State agency’s suggested
revision, we changed the title to clarify that we reviewed the risk-sharing contract provisions for
the QUEST Expanded Medicaid program.




Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)                   ii
                                                    TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION......................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objectives........................................................................................................................1

           Background ....................................................................................................................1
                 Administration of the Medicaid Program and Authorization of
                  Section 1115 Demonstration Projects ...............................................................1
                 Hawaii QUEST Expanded Medicaid ...................................................................2
                 Risk-Sharing Provisions of Contracts With Managed Care Organizations .........2

           How We Conducted This Review .................................................................................3

FINDINGS ..................................................................................................................................3

           Federal Requirements ...................................................................................................3

           State Agency Did Not Obtain Updated Financial Reports From
             Managed Care Organizations ....................................................................................4

           State Agency Did Not Verify Completeness or Accuracy of
             Managed Care Organizations’ Financial Data ........................................................4
                  Completeness of Financial Data ..........................................................................4
                  Accuracy of Annual Statements of Revenue and Expenses ................................4

           Net Loss or Gain Percentage Was Still Within Risk Corridor
            After Our Calculation for Fiscal Year Ended June 30, 2010..................................5

           Conclusion ......................................................................................................................5

RECOMMENDATIONS...........................................................................................................6

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE..........................................................6

APPENDIXES

           A: Audit Scope and Methodology.................................................................................7

           B: State Agency Comments ..........................................................................................9




Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)                                                              iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

Federal regulations allow a State Medicaid agency to enter into a comprehensive risk contract
with a managed care organization (MCO); the contract must specify any risk-sharing
mechanisms. These risk-sharing arrangements reduce MCOs’ financial risk by providing a
mechanism for States to share in MCOs’ losses but also allow States to share in MCOs’ gains.
Because the Federal and State Governments jointly fund the Medicaid program, the Federal
Government also shares in any losses or gains.

Hawaii is one of the States that uses risk sharing in its MCO contracts. The Hawaii Department
of Human Services (State agency) entered into comprehensive risk contracts with MCOs to
provide health services to beneficiaries under the age of 65 and without a disabling diagnosis
under QUEST Expanded Medicaid (QUEST), a Medicaid demonstration project. 1

OBJECTIVES

Our objectives were to determine whether the State agency established risk-sharing mechanisms
in its contracts with MCOs for QUEST in accordance with Federal regulations and adequately
monitored implementation of the contract provisions.

BACKGROUND

Administration of the Medicaid Program and Authorization of
Section 1115 Demonstration Projects

Under Title XIX of the Social Security Act (the Act), the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements.

Section 1115 of the Act provides the Secretary of Health and Human Services with broad
authority to authorize demonstration projects to assist in promoting the objectives of the
Medicaid program. Under section 1115, the Secretary may waive compliance with any of the
requirements of section 1902 of the Act to enable States to carry out these projects and receive
Federal funds.




1
 In a prior audit, we reviewed the State agency’s implementation of contract provisions for another Medicaid
demonstration project in Hawaii, QUEST Expanded Access. The report, entitled Contract Provisions for the
Hawaii QUEST Expanded Access Risk Share Program Not Implemented (A-09-12-02006), was issued
February 27, 2012.


Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)                            1
Hawaii QUEST Expanded Medicaid

Hawaii provides comprehensive Medicaid coverage across the State to healthy children and
adults through MCOs. The MCOs provide health services in return for a monthly fixed payment
(i.e., capitation payment) for each enrolled recipient.

In Hawaii, the State agency administers the Medicaid program. On August 1, 1994, the State
agency implemented QUEST, a section 1115 demonstration project, to provide medical and
behavioral health services to beneficiaries under the age of 65 and without a disabling diagnosis.
The State agency contracted with four MCOs to participate in QUEST for the fiscal year (FY)
ended June 30, 2009, and contracted with three MCOs to participate in QUEST for the FY ended
June 30, 2010. 2 The contract with each MCO incorporates the State agency’s Request for
Proposal (RFP) and the MCO’s individual proposal. Within the RFP, the risk-sharing provisions
are referenced in Appendix T.

Risk-Sharing Provisions of Contracts With Managed Care Organizations

According to the risk-sharing provisions in Appendix T of the RFP, the State agency shares in
any significant difference between the capitated revenues and the actual net health care expenses
of the MCOs on an aggregate basis.

       •   Capitated revenues are the total monthly capitation payments to the MCOs.

       •   Net health care expenses are actual service expenses paid by the MCO less any
           reimbursements received from third parties, such as rebates on prescription drugs.

The MCOs submit to the State agency annual financial reports within 45 days of the State FY
ended June 30. The financial reports include the Statement of Revenue and Expenses, which
shows capitated revenues and health care expenses.

According to the risk-sharing provisions, the State agency will request that the MCOs submit
updated financial reports for the FY ended June 30 for any adjustments through December 31.
Adjustments may include health care services that were furnished by medical providers but not
yet billed to the MCOs before the FY ended June 30. Upon receiving these financial reports, the
State agency is required to develop an aggregate profit-and-loss statement for the MCOs and to
compute an aggregate net loss or gain percentage. The State agency calculates this percentage
by comparing 90 percent 3 of the capitated revenues with the actual net health care expenses. If
the net loss exceeds 5 percent or the net gain exceeds 3 percent (a range referred to as the “risk
corridor”), the risk-sharing provisions go into effect and the profit or loss, as applicable, is shared
between the State agency and the MCOs.



2
 One of the four MCOs for the FY ended June 30, 2009, did not enter into a contract with the State agency for the
FY ended June 30, 2010.
3
    This percentage was specified in the risk-sharing provisions of the contracts.


Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)                                 2
For the FYs ended June 30, 2009, and June 30, 2010, the State agency calculated that the MCOs’
aggregate net loss or gain percentage was within the risk corridor. Therefore, the risk-sharing
provisions of the contracts did not go into effect.

HOW WE CONDUCTED THIS REVIEW

Our audit covered the period July 1, 2008, through June 30, 2010. We reviewed the provisions
of the State agency’s contracts with the four MCOs that participated in QUEST and the State
agency’s risk share calculations. We limited our review of the State agency’s internal controls to
those controls over monitoring implementation of the risk-sharing provisions of the contracts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                  FINDINGS

For the FYs ended June 30, 2009, and June 30, 2010, the State agency established risk-sharing
mechanisms in its comprehensive risk contracts with MCOs for QUEST in accordance with
Federal regulations. However, the State agency did not adequately monitor implementation of
some of the contract provisions. Specifically, the State agency did not (1) request updated
financial reports from the MCOs to calculate the aggregate net loss or gain percentage or
(2) verify the completeness and accuracy of the financial data submitted by the MCOs, including
verifying that capitated revenues and health care expenses were based on actual revenues and
expenses less any reimbursements.

After obtaining updated financial reports from the MCOs and using the MCOs’ actual revenues
and expenses for the FY ended June 30, 2010, we determined that the aggregate net loss or gain
percentage was within the risk corridor. Consequently, the risk-sharing provisions were not
applicable for the FY ended June 30, 2010. 4

FEDERAL REQUIREMENTS

Federal regulations allow a State agency to enter into a comprehensive risk contract with an
MCO (42 CFR § 438.6). Among other requirements, the contract must specify any risk-sharing
mechanisms. The State agency must have in effect procedures for monitoring the MCO’s
operations, including, at a minimum, the provisions of the contract (42 CFR § 438.66).

Under the Special Terms and Conditions of the QUEST section 1115 demonstration project, the
State agency is required to effectively monitor and ensure oversight of the demonstration.

4
 We did not recalculate the aggregate net loss or gain percentage for the FY ended June 30, 2009, because the
MCOs were not able to provide updated financial reports.


Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)                             3
STATE AGENCY DID NOT OBTAIN UPDATED FINANCIAL REPORTS FROM
MANAGED CARE ORGANIZATIONS

According to the risk-sharing provisions, the State agency will request that the MCOs submit
updated financial reports for the FY ended June 30 for any adjustments through December 31.
Adjustments may include expenses for health care services that were furnished by medical
providers but not yet billed to the MCOs before the FY ended June 30.

To calculate the aggregate net loss or gain percentage for the MCOs, the State agency did not
obtain from the MCOs updated financial reports reflecting any adjustments. Specifically, for the
FYs ended June 30, 2009, and June 30, 2010, the State agency obtained the annual financial
reports within 45 days after the FY but did not request that the MCOs provide updated financial
reports for any adjustments through December 31.

STATE AGENCY DID NOT VERIFY COMPLETENESS OR ACCURACY OF
MANAGED CARE ORGANIZATIONS’ FINANCIAL DATA

The State agency did not verify the completeness and accuracy of the financial data submitted by
the MCOs, including verifying that revenues and expenses were based on actual revenues and
expenses less any reimbursements.

Completeness of Financial Data

According to the risk-sharing provisions, the State agency, after receiving the updated annual
financial reports from the MCOs, is required to develop an aggregate profit-and-loss statement
covering all the MCOs and to compute an aggregate net loss or gain percentage based on the
total capitation payments to the MCOs.

The State agency did not use complete financial data from the annual financial reports to develop
the aggregate annual profit-and-loss statement for computing the aggregate net loss or gain
percentage:

    •   For one MCO, the State agency included only part of the Statement of Revenue and
        Expenses for the FY ended June 30, 2010.

    •   For another MCO, the State agency used the financial report for only one quarter rather
        than the annual financial reports for the FYs ended June 30, 2009, and June 30, 2010.

Accuracy of Annual Statements of Revenue and Expenses

According to the risk-sharing provisions, the MCO’s capitated revenues are the State agency’s
total capitation payments to the MCO. Net health care expenses are actual service expenses less
any reimbursements received from third parties, such as rebates on prescription drugs.

The State agency did not verify the accuracy of the MCOs’ annual Statements of Revenue and
Expenses, which were not based on actual capitated revenues and net health care expenses:



Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)               4
    •   One MCO reported Medicaid supplemental payments 5 on the basis of estimates, which
        overstated both capitated revenues and health care expenses.

    •   One MCO’s health care expenses did not include Medicaid supplemental payments,
        which understated health care expenses.

    •   Two MCOs did not record actual current-year reinsurance 6 amounts on the proper
        revenue line, which the State agency considered as a reduction to the MCOs’ health care
        expenses.

    •   Two MCOs reported additional estimates of unbilled health care expenses, which
        overstated health care expenses.

    •   One MCO had health care pharmacy expenses that were not properly reduced by drug
        rebate amounts, which overstated health care expenses.

NET LOSS OR GAIN PERCENTAGE WAS STILL WITHIN RISK CORRIDOR
AFTER OUR CALCULATION FOR FISCAL YEAR ENDED JUNE 30, 2010

To determine whether the risk-sharing provisions of the contracts should have gone into effect
for the FY ended June 30, 2010, we obtained updated financial reports from the MCOs and used
the MCOs’ actual revenues and expenses. Our analysis determined that the aggregate net loss or
gain percentage was within the risk corridor. Consequently, the risk-sharing provisions were not
applicable for the FY ended June 30, 2010.

CONCLUSION

Because the Federal and State Governments jointly fund the Medicaid program, the Federal
Government shares in any State agency losses or gains in QUEST. Although our analysis for the
FY ended June 30, 2010, determined that the aggregate net loss or gain percentage was within
the risk corridor and there was no impact on the Federal Government’s share, the Federal
Government’s share could be affected in future years if the State agency does not adequately
monitor implementation of the risk-sharing provisions in its contracts with MCOs that participate
in QUEST.




5
 The MCOs receive supplemental payments from the State agency to partially subsidize care for the uninsured.
These payments are included in the capitation rates. The MCOs make these supplemental payments to providers for
uninsured care and record the amounts as health care expenses.
6
 Reinsurance is the amount that the State agency reimburses the MCOs for certain benefits that exceed a specified
expense limit. These reinsurance amounts reduce the MCOs’ net health care expenses but are not included in the
capitation rates.


Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)                                 5
                                      RECOMMENDATIONS

We recommend that, in the future, the State agency:

    •   obtain from the MCOs updated financial reports reflecting any adjustments through
        December 31 and use those reports to calculate the aggregate net loss or gain percentage
        and

    •   verify the completeness and accuracy of the financial data provided by MCOs in updated
        financial reports.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our findings and
described actions that it had taken to address our recommendations. The State agency also
suggested that we revise the title of our report to Hawaii Did Not Adequately Implement the
QUEST Expanded Access Risk Share Program. The State agency’s comments are included in
their entirety as Appendix B.

The State agency’s suggested revision of the title of our report does not reflect the program that
we reviewed because we did not review QUEST Expanded Access. We changed the title to
clarify that we reviewed the risk-sharing contract provisions for the QUEST Expanded Medicaid
program.




Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)                6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the period July 1, 2008, through June 30, 2010. We did not review the State
agency’s overall internal control structure because our objectives did not require us to do so. We
limited our review of the State agency’s internal controls to those controls over monitoring
implementation of the risk-sharing provisions of the State agency’s contracts with the four
MCOs that participated in QUEST.

We conducted fieldwork from September 2011 to April 2012 at the State agency’s offices in
Honolulu and Kapolei, Hawaii, and the MCOs’ offices in Honolulu, Hawaii.

METHODOLOGY

To accomplish our objectives, we:

    •   reviewed applicable Federal laws and regulations;

    •   reviewed the Special Terms and Conditions of the QUEST section 1115 demonstration
        project;

    •   reviewed the provisions of the State agency’s contracts with the MCOs that participated
        in QUEST for the FYs ended June 30, 2009, and June 30, 2010;

    •   reviewed the risk-sharing provisions in Appendix T of the State agency’s RFP;

    •   held discussions with CMS and State agency officials to gain an understanding of the
        risk-sharing provisions and how the State agency administered and monitored QUEST;

    •   reviewed the State agency’s risk share calculations by reconciling the MCOs’ capitated
        revenues and health care expenses with the MCOs’ annual financial reports;

    •   held discussions with each MCO and judgmentally selected documents for review to
        determine whether:

            o the capitated payments recorded by the State agency were reconciled with the
              capitated revenues reported on the MCO’s Statement of Revenue and Expenses
              and

            o actual revenues and net health care expenses were reported in the Statement of
              Revenue and Expenses by reconciling the amounts with the supporting schedules;

    •   performed our own risk share calculations using the MCOs’ actual revenues and expenses
        for the FY ended June 30, 2010, to determine whether the risk-sharing provisions should
        have gone into effect; and


Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)               7
    •   discussed the results of our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Risk-Sharing Contract Provisions for Hawaii QUEST Expanded Medicaid (A-09-11-02054)            8
